GR-80-98-036
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Dallas County Domestic Violence Project
Administered by the
Dallas County District Attorney's Office
Grant No. 97-WE-VX-0029
GR-80-98-036
 
September 17, 1998
 
* * * * *
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the
Dallas County Domestic Violence Project, Grant No. 97-WE-VX-0029, administered by the
Dallas County District Attorney's Office, for the period of March 1, 1997,
through May 31, 1998. The $1,300,000 grant, awarded by the Office of Justice Programs
(OJP), was effective from March 1, 1997, through August 31, 1998.
Our review did not reveal any material weakness. However, there were minor errors which
we discovered and the grantee immediately addressed. These items are discussed in the
Findings section of this report. Our scope and methodology are described in the Appendix.
#####